GR-50-98-014
U. S. DEPARTMENT OF JUSTICE

 
Audit Report
 
FY 1996 Rural Domestic Violence and Child Victimization Program
Administered by the Kansas Coalition Against Sexual & Domestic
Violence
Topeka, Kansas
Grant No. 96-WR-NX-0019
Audit Report Number GR-50-98-014 
 June 8, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the FY
1996 Rural Domestic Violence and Child Victimization Program, grant number 96-WR-NX-0019,
administered by the Kansas Coalition Against Sexual and Domestic Violence (KCSDV) for the
period of October 1, 1996 through March 31, 1998. The grant was awarded in the amount of
$705,527 by the Violence Against Women Grants Office, for this 18-month period. However,
the KCSDV was awarded a "no cost" extension through June 30, 1998.
Our audit concentrated on the period of October 1, 1996 through March 31, 1998. We
tested the accuracy and reliability of the KCSDV's accounting system, reviewed the General
Ledger, and evaluated the allowability, allocability, and reasonableness of costs.
Our audit disclosed weaknesses in KCSDV's compliance with the grant award. The Findings
and Recommendations address the following areas: 




- KCSDV's failure to fully meet the grant objectives has resulted in $115,134 that
        could be put to better use;
- Unapproved payroll charges in excess of grant budget in the amount of $19,130;
- Excessive cash balances resulting from KCSDV's inability to forecast cash management
        needs;
- Insufficiently documented subgrantee costs in the amount of $895; and
- Failure to submit financial status and progress reports timely.




 
#####